No.
In The

^wpremt

of tl}e '^nxith
XiTRONix Corporation,
Petitioner,
V.

KLA-Tencor Corporation, dba KLA-Tencor, Inc.
Respondent.
CERTIFICATE OF SERVICE
I, Adam G. Unikowsky, hereby certify that I am a member of the Bar of this
Court, and that I have this 10th day of July 2019, caused three copies of the Petition for
a Writ of Certiorari to be served via overnight mail and an electronic version of the
document to be transmitted via the Court’s electronic filing system to:
James M. Heintz
DLA Piper LLP (US)
One Fountain Square
11911 Freedom Drive, Suite 300
Reston, VA 20190-5602
(703) 773-4148
jim.heintz@dlapiper.com
Counsel for Respondent

c
Adam G. Unikowsky

